        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Department of Energy Efforts to
Manage Information Technology
Resources in an Energy-Efficient
and Environmentally Responsible
Manner




OAS-RA-09-03                          May 2009 

                              Department of Energy
                                Washington, DC 20585
                                    May 27, 2009



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Department of Energy
                         Efforts to Manage Information Technology Resources in an
                         Energy-Efficient and Environmentally Responsible Manner"
BACKGROUND
The American Recovery and Reinvestment Act of 2009 emphasizes energy efficiency and
conservation as critical to the Nation's economic vitality; its goal of reducing dependence
on foreign energy sources; and, related efforts to improve the environment. The Act
highlights the significant use of various forms of energy in the Federal sector and
promotes efforts to improve the energy efficiency of Federal operations. One specific
area of interest is the increasing demand for Federal sector computing resources and the
corresponding increase in energy use, with both cost and environmental implications.
The U.S. Environmental Protection Agency reported that, without aggressive
conservation measures, data center energy consumption alone is expected to double over
the next five years. In our report on Management of the Department's Data Centers at
Contractor Sites (DOE/IG-0803, October 2008) we concluded that the Department of
Energy had not always improved the efficiency of its contractor data centers even when
such modifications were possible and practical.
The Department of Energy and its facility contractors are major players in this process.
U.S. taxpayers invest more than $2 billion annually in Department information
technology resources, including devices that consume significant amounts of electricity.
The Energy Independence and Security Act of 2007, required the Department and all
other Federal agencies to improve energy efficiency and to reduce energy costs and
greenhouse gas emissions. In 2008, to help achieve these goals, the Department issued
operating guidance requiring the adoption and implementation of a number of
information technology-related environmental stewardship practices, including enabling
power management features on computers and peripherals.
Because of significant cost, energy and environmental impacts, we initiated this audit to
determine whether the Department managed information technology resources in an
energy-efficient and environmentally responsible manner.
RESULTS OF AUDIT
Despite its recognized energy conservation leadership role, the Department had not
always taken advantage of opportunities to reduce energy consumption associated with
                                             2

its information technology resources. Nor, had it ensured that resources were managed in
a way that minimized impact on the environment. In particular:

   •   The seven Federal and contractor sites included in our review had not fully
       reduced energy consumption through implementation of power management
       settings on their desktop and laptop computers; and, as a consequence, spent
       $1.6 million more on energy costs than necessary in Fiscal Year 2008;

   •   None of the sites reviewed had taken advantage of opportunities to reduce energy
       consumption, enhance cyber security, and reduce costs available through the use
       of techniques, such as "thin-client computing" in their unclassified environments;
       and,

   •   Sites had not always taken the necessary steps to reduce energy consumption and
       resource usage of their data centers, such as identifying and monitoring the
       amount of energy used at their facilities.

We concluded that Headquarters programs offices (which are part of the Department of
Energy's Common Operating Environment) as well as field sites had not developed
and/or implemented policies and procedures necessary to ensure that information
technology equipment and supporting infrastructure was operated in an energy-efficient
manner and in a way that minimized impact on the environment. For example, although
required by the Department, sites had not enabled computer equipment power
management features designed to reduce energy consumption. In addition, officials
within Headquarters programs and at the sites reviewed had not effectively monitored
performance or taken steps to fully evaluate available reductions in energy usage at their
facilities. Without improvements, the Department will not be able to take advantage of
opportunities to reduce energy consumption and realize cost savings of nearly
$23 million over the next five years at just the seven sites reviewed. We noted that the
potential for reduced energy consumption at these sites alone was equivalent to the
annual power requirements of over 2,400 homes or, alternatively, removing about 3,000
cars from the road each year.

Many of the available energy reduction strategies, such as fully utilizing energy-efficient
settings on the many computers used by the Department and its contractors, are "low
hanging fruit" in that they will provide immediate tangible energy savings at little or no
cost. Others, such as a shift to thin-client computing, an environment that transfers the
processing capabilities from an individual's desk to a shared server environment, will
require some level of investment which can, based on available literature, be successfully
recovered through reduced acquisition and support costs. In our judgment, given its
highly visible leadership in energy issues, aggressive action should be taken to make the
Department's information technology operations as energy efficient as possible so that it
can serve as a role model for both the Federal and private sector.
                                            3

To its credit, the Department had increased the number of energy-efficient computers
purchased in recent years. In addition, the Office of the Chief Information Officer
implemented an automated computer shutdown program at Headquarters that was
estimated to save up to nearly $400,000 per year. Furthermore, we found that certain
sites had initiated actions to review a potential transition to unclassified thin-client
computing; however, implementation had not yet been completed. These are positive
steps, but additional action is required, and our report contains several recommendations
to this end.

MANAGEMENT REACTION

Management concurred with the report's recommendations and pledged to take needed
corrective actions. In separate comments, the NNSA agreed with the information
contained in the report and concurred with each of the recommendations. Management's
comments are included in Appendix 4.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Under Secretary of Energy
    Chief of Staff
AUDIT REPORT ON DEPARTMENT OF ENERGY EFFORTS TO
MANAGE INFORMATION TECHNOLOGY RESOURCES IN AN
ENERGY-EFFICIENT AND ENVIRONMENTALLY RESPONSIBLE
MANNER

TABLE OF
CONTENTS


Information Technology Management

Details of Finding .............................................................................................................1
 


Recommendations.............................................................................................................8 
 


Comments .........................................................................................................................9 
 



Appendices

1. Objective, Scope, and Methodology.........................................................................11 
 


2. Potential Savings……...............................................................................................13 
 


3. Prior Audit Reports ...................................................................................................15 
 


4. Management Comments ...........................................................................................16 
 

INFORMATION TECHNOLOGY MANAGEMENT 
 


Information Technology 	 	     Our review of seven Federal and contractor sites
Operations and Energy	 	       disclosed that the Department of Energy (Department)
Consumption	 	                 had not taken adequate steps to ensure that its
                               information technology resources were managed in
                               an energy-efficient manner and in a way that
                               minimized impact on the environment. In
                               particular, at each of the sites reviewed, we found
                               that power management settings for desktops,
                               laptops, and computer monitors were not enabled to
                               the extent practical. In addition, none of the sites
                               had implemented thin-client computing in their
                               unclassified environments even though numerous
                               industry best practices had identified such practice
                               as a way to lower energy and acquisition costs,
                               reduce disposal amounts, and enhance cyber
                               security. The Department also had not always
                               monitored the amount of energy used by its data
                               centers, and therefore, could not justify the benefits
                               of implementing more efficient technologies.

                                               Power Management

                               The Department had not fully reduced energy
                               consumed by its desktop and laptop computers
                               through implementation of power management
                               settings such as shutting down monitors, enabling
                               computer standby, and placing a computer into
                               hibernation when not in use. Although the Code of
                               Federal Regulations and Executive Order 13423 –
                               Strengthening Federal Environment, Energy, and
                               Transportation Management – require Federal
                               agencies to enable power management features on
                               computers and monitors, we found that none of the
                               seven sites reviewed had ensured that these settings
                               were in place.

                               While the Environmental Protection Agency (EPA)
                               noted that shutting down a computer monitor when
                               not in use is one of the easiest things a user can do
                               to save energy, we found that 54 of 116 (47 percent
                               of computers sampled at 7 sites [4 Federal, 3
                               contractor]) failed to meet the EPA-recommended
                               settings. For instance, each of the 20 computers
                               reviewed at the National Energy Technology
                               Laboratory (NETL) were set to never turn off the
                               monitor after a period of non-use. At the Oak
                               Ridge National Laboratory (ORNL), 8 of 18
________________________________________________________________________
Page 1 	 	                                               Details of Finding
                               computers were set to turn the monitor off after 48
                               hours, 144 times the recommended standard. Using
                               EPA calculations, we determined that the sites
                               reviewed could have saved over $405,000 per year
                               had they followed the EPA-recommended standard
                               for monitor shutdown.

                               Placing a computer in standby mode after a
                               specified period of non-use saves energy by cutting
                               power to many of a computer's unused functions
                               such as peripherals and hard drives. However, we
                               found that none of the sites reviewed had uniformly
                               implemented this setting consistent with EPA
                               recommendations. For example, 23 of 24
                               computers evaluated at the Sandia National
                               Laboratories (SNL) did not meet the EPA
                               guidelines, including 22 computers that were
                               configured to never go into standby mode.

                               In addition to standby, placing a computer into
                               hibernation can provide additional energy savings.
                               However, we found that nearly all of the computers
                               reviewed did not have the hibernation feature
                               enabled. Using EPA calculations, we determined
                               that placing a computer into hibernation and
                               standby mode could have saved on average $25 per
                               machine annually at the sites reviewed, or
                               approximately $1.2 million per year for the 46,435
                               machines reviewed. Although hibernation may not
                               be practical for all scientific machines, the
                               Department could realize energy cost savings for
                               the vast majority of its computers used for non-
                               scientific, non-technical purposes. To its credit, the
                               Office of the Chief Information Officer (OCIO)
                               recently implemented an automated computer
                               shutdown program as part of its Department of
                               Energy Common Operating Environment
                               (DOECOE) at Headquarters that was estimated to
                               save up to nearly $400,000 per year.

                                              Thin-Client Computing

                               The adoption of thin-client computing – a
                               technology that depends primarily on central servers
                               for processing activities rather than end-user
                               desktops – can significantly reduce energy
                               consumption. A thin-client device uses only a
________________________________________________________________________
Page 2                                                   Details of Finding
                               fraction of the energy consumed by a standard
                               desktop, results in acquisition and disposal savings,
                               and enhances cyber security. However, despite
                               successes realized in implementing thin-client
                               computing in the classified environment, the
                               Department had not taken action to use this
                               technology in its unclassified environment, where
                               appropriate.

                               Although thin-client computing can reduce end-user
                               energy costs by up to 95 percent, none of the sites
                               reviewed had implemented unclassified thin-clients.
                               While we noted that thin-client computing would
                               not be practical for everyone, based on estimates
                               provided by Federal and contractor officials, we
                               calculated that had the Department transitioned to
                               this technology and replaced more than 10,300
                               desktops at the seven sites visited, energy savings of
                               more than $195,000 annually could have been
                               realized. For instance, Headquarters could have
                               replaced nearly 3,500 DOECOE desktops with this
                               platform, saving $92,000 per year in energy costs
                               alone. Similarly, had the Y-12 National Security
                               Complex (Y-12) transitioned to thin-client
                               computers, it could have reduced annual energy
                               costs by $18,061. While there may be some
                               incremental increased energy usage and
                               infrastructure costs to support a thin-client
                               infrastructure, a Headquarters official informed us
                               that a recent Departmental study concluded that
                               overall energy consumption could be reduced by
                               more than 55 percent.

                               At the seven sites reviewed, we determined that the
                               Department paid $1.2 million more than necessary
                               in hardware acquisition costs in Fiscal Year (FY)
                               2008 by acquiring 2,063 desktops rather than thin-
                               clients. In one case, Y-12 could have saved up to
                               $235,547 in FY 2008 by paying only about $275
                               per thin-client rather than its average desktop cost
                               of $950. In another instance, SNL could have saved
                               up to $420,168 in hardware related costs over the
                               same period by acquiring thin-clients instead of
                               desktops. In addition, because thin-client machines
                               generally have a life-cycle that is twice as long as a
                               desktop and weigh only about one-fourth the

________________________________________________________________________
Page 3                                                   Details of Finding
                               amount of a desktop, the sites reviewed may be able
                               to avoid disposal of up to 77 tons of waste material
                               annually.

                               In addition to energy and acquisition cost savings
                               and reduced environmental impact, the use of thin-
                               clients can significantly enhance the Department's
                               ability to protect sensitive unclassified information
                               by centralizing cyber security controls.
                               Specifically, thin-clients would have permitted the
                               Department to more effectively implement security
                               vulnerability patches through consistent and timely
                               patch management. In addition, user permissions,
                               such as defining what types of devices (i.e., devices
                               such as flash or portable hard drives) may be
                               connected to the machine, could have been more
                               easily controlled. Industry research has found that
                               thin-client computing has many additional benefits,
                               including more effective management of software
                               licenses and increased reliability of hardware.

                                        Data Center Energy Consumption

                               Although studies indicate that the amount of energy
                               consumed by data centers is expected to nearly
                               double in five years, the Department had not always
                               taken the necessary steps to evaluate and reduce
                               energy consumption and resource usage of their
                               data centers. Numerous studies and independent
                               articles have reported that resources used by data
                               centers will continue to increase substantially as
                               demand for data processing and storage increases.
                               However, five of the field sites reviewed had not
                               monitored the amount of energy used by their data
                               centers and, therefore, could not justify the benefits
                               of implementing more efficient technologies. For
                               instance, data center officials at ORNL noted that
                               they were unaware of the costs of operating the data
                               center and had not coordinated with facilities
                               personnel to monitor and reduce energy
                               consumption. Our recent report on Management of
                               the Department's Data Centers at Contractor Sites
                               (DOE/IG-0803, October 2008) disclosed that
                               implementing more efficient technologies, such as
                               virtualization, could significantly reduce data center
                               operating costs. In addition, as noted by a
                               Department official, one of the first steps in
________________________________________________________________________
Page 4                                                   Details of Finding
                               reducing energy consumption is to determine how
                               much an entity is spending on energy usage in
                               operating its data centers.

                               In addition, we found that even though the
                               Department's Office of Energy Efficiency and
                               Renewable Energy recently developed the Data
                               Center Energy Profiler – an automated tool
                               designed to identify numerous energy-saving
                               opportunities within data centers – at a cost of
                               $465,000, none of the sites reviewed had utilized
                               this tool. Furthermore, while NETL officials noted
                               that they utilized cooling equipment that was
                               energy-efficient when recently constructing a new
                               data center facility, we found that additional energy
                               reductions were possible had the site powered the
                               equipment using direct current electricity, which
                               was estimated to be up to 30 percent more efficient
                               than what was utilized. One official estimated that
                               even though the machine powered by direct current
                               was more expensive, payback on this equipment
                               could be achieved in less than two years through
                               increased energy efficiencies and reduced
                               maintenance costs. Notably, the Department had
                               taken a number of actions in this area, including
                               efforts to upgrade infrastructure of the Headquarters
                               data center facility which will support the
                               development of an energy improvement plan, and
                               implementation of technologies such as
                               virtualization at a number of field sites.

Policies and Performance	 	    These problems occurred because Headquarters
Monitoring and Evaluation	 	   programs and field sites had not developed and/or
                               implemented policies and procedures that addressed
                               all relevant requirements for ensuring an energy-
                               efficient information technology environment that
                               minimized impact on the environment. In addition,
                               a lack of adequate performance monitoring and
                               program evaluations contributed to the
                               Department's inability to ensure that information
                               technology resources were managed in accordance
                               with Federal requirements.

                                             Policies and Procedures

                               Sites reviewed had not developed and/or
                               implemented policies and procedures designed to
________________________________________________________________________
Page 5 	 	                                               Details of Finding
                               manage information technology equipment in an
                               energy-efficient and environmentally sound
                               manner. In particular, Department Order 450.1A –
                               Environmental Protection Program – required
                               programs and sites to enable power management
                               capabilities on all computers, monitors, and other
                               electronic equipment. However, none of the sites
                               reviewed had developed policies and procedures to
                               ensure that this requirement was implemented. In
                               addition, Headquarters organizations had not
                               developed policies requiring sites to increase the
                               efficiency of information technology operations by
                               minimizing data center energy usage and evaluating
                               the use of thin-clients where possible. For instance,
                               even though the Department recently completed a
                               transition to classified thin-clients in which it
                               realized enhanced cyber security and reduced costs,
                               it had not issued guidance requiring evaluation and
                               consideration of this infrastructure in an
                               unclassified environment.

                                     Performance Monitoring and Evaluation

                               Officials within Headquarters programs and at the
                               sites reviewed had not effectively monitored
                               performance to ensure that information technology
                               resources were being managed in an energy-
                               efficient manner and in a way that minimized
                               impact to the environment. For instance, even
                               though the sites reviewed operated more than
                               46,000 desktops and laptops, none of them had
                               implemented a process to monitor that all power
                               management settings were enabled to the extent
                               practical to achieve maximum efficiencies. In most
                               cases, power management settings were not utilized
                               because sites permitted users to enable those
                               functions as they deemed necessary. However, the
                               EPA reported that enabling certain settings could
                               save as much as $25 to $75 annually per machine.
                               Similarly, our review found that annual savings of
                               $34 per machine could be realized at the seven sites
                               reviewed through the implementation of commonly
                               used power management settings.

                               Sites also had not taken steps to fully evaluate
                               potential reductions in energy usage at their
                               facilities. For instance, sites reviewed had not
________________________________________________________________________
Page 6                                                   Details of Finding
                               obtained independent analyses of their data centers
                               and other information technology operations to
                               identify opportunities for efficiencies and related
                               cost savings. Even when thin-clients were
                               discussed, detailed project plans were not always
                               completed or were not acted upon. For example,
                               officials at Y-12 and ORNL stated that they had
                               considered the prospects of implementing thin-
                               clients, but had not completed a formal analysis to
                               determine the benefits and, therefore, had not
                               initiated action. Although the OCIO had evaluated
                               different manufacturers' thin-client solutions, a
                               formal study had not yet been conducted.

Cost Savings and	 	            Without improvements, the Department will not be
Environmental Stewardship	 	   able to realize cost savings of nearly $23 million
                               over the next five years at just the seven sites
                               reviewed, will continue to use more energy than
                               necessary, and may not be able to take advantage of
                               opportunities to help reduce harmful emissions. As
                               noted in a recent study, Dell Computer Company
                               expects to realize annual savings of $1.8 million by
                               implementing power management functions on
                               50,000 desktop and laptop computers. Based on our
                               audit work, we determined that the seven sites
                               reviewed could potentially realize similar savings of
                               about $7.8 million over the next five years by
                               implementing recommended power management
                               settings. Enabling these features complex-wide
                               could result in significant additional savings.

                               The Department could also realize hardware
                               acquisition savings of up to $6 million over the next
                               five years through adoption of thin-client computing
                               at the seven sites reviewed. A transition to thin-
                               client computing could also result in at least
                               $149,000 of energy-related savings, including
                               avoiding the use of 1.9 million kilowatt hours over
                               five years. Furthermore, based on industry data, we
                               estimated that the sites visited could save an
                               additional $1.8 million per year through reduced
                               support services costs associated with thin-client
                               technology. Details of our cost savings calculations
                               are included in Appendix 2.




________________________________________________________________________
Page 7 	 	                                               Details of Finding
                             The energy savings realized by adopting power
                             management settings throughout the Department
                             could reduce electricity usage by over 27 million
                             kilowatt hours per year, or enough to power 2,453
                             homes. Alternatively, it could also reduce the
                             amount of carbon-dioxide emissions created by
                             producing the electricity necessary to power
                             computers by 16,000 tons – equivalent to taking
                             2,980 cars off of the road each year. Transitioning
                             to thin-client technology for unclassified computing
                             could provide additional environmental benefits
                             because these machines have double the life-cycle
                             and weigh only about one-fourth the amount of a
                             desktop, enabling the Department to avoid disposal
                             of up to 77 tons of waste material annually.
                             Furthermore, adequate analysis of energy usage in
                             its data centers may also enable the Department to
                             take advantage of opportunities to reduce energy
                             consumption and realize significant cost and
                             environmental benefits.

RECOMMENDATIONS	 	           To address the issues identified in this report, we
                             recommend that the Administrator, National
                             Nuclear Security Administration, the Under
                             Secretary of Energy, and the Under Secretary for
                             Science, in coordination with the Department and
                             National Nuclear Security Administration Chief
                             Information Officers:

                               1. 	 Develop and implement policies and
                                    procedures for ensuring that power
                                    management settings are enabled on all
                                    computing resources, as appropriate;

                               2. 	 Analyze the costs and benefits of utilizing
                                    thin-client computing in an unclassified
                                    environment and implement the results to the
                                    extent practical; and,

                               3. 	 Identify and implement mechanisms to
                                    reduce data center energy consumption,
                                    including but not limited to conducting
                                    energy usage assessments and implementing
                                    the use of existing Department automated
                                    tools.



________________________________________________________________________
Page 8 	 	                                             Recommendations
MANAGEMENT                   Management generally concurred with the report's
REACTION                     findings and recommendations. While management
                             believed that existing policy relating to
                             implementing power management features was
                             sufficient, it indicated that steps will be taken to
                             ensure that power management settings are enabled
                             where possible. In addition, management stated
                             that thin-client technology is not acceptable for all
                             computer users, but noted that it will continue to
                             evaluate the costs and benefits of implementing
                             thin-clients throughout the Department.
                             Furthermore, management commented that it had
                             already initiated action to address energy
                             consumption in its data centers as a result of our
                             prior report on Management of the Department's
                             Data Centers at Contractor Sites. However,
                             National Energy Technology Laboratory officials
                             disagreed with our observation that they could have
                             utilized more energy-efficient cooling equipment
                             when constructing their data center. In its
                             comments, management also disclosed that it was
                             concerned that our estimated cost savings may be
                             overstated.

                             In separate comments, the NNSA agreed with the
                             information contained in the report and concurred
                             with each of the specific recommendations. The
                             NNSA disclosed that except for a small
                             configuration used to support mission applications,
                             the information technology services utilized by its
                             Federal workforce are the responsibility of the
                             Department's OCIO. In addition, the NNSA noted
                             that there are numerous technological and funding
                             aspects that must be considered when implementing
                             thin-client technology. Furthermore, management
                             stated that it had taken action during the course of
                             our review to promote energy efficiencies in its data
                             centers. NNSA management indicated that it will
                             work to implement the recommendations contained
                             in the report.

AUDITOR                      Management's comments were responsive to our
COMMENTS                     recommendations. Where appropriate, we made
                             changes to the body of our report to address
                             management's comments. Although we agree that
                             the existing Departmental policy contained a
                             requirement to implement power management
________________________________________________________________________
Page 9                                                        Comments
                              settings, we found that none of the programs or field
                              sites reviewed had developed supporting policies
                              and procedures relevant to specific power
                              management settings, such as required timeframes
                              for enabling system standby, shutdown, and
                              hibernation. Furthermore, as noted in our report,
                              we agree that thin-client technology is not suitable
                              for all users, but should be evaluated and
                              implemented where appropriate. In addition, while
                              we agree that NETL made incremental
                              improvement when constructing their data center,
                              we believe based on discussions with a Department
                              official and industry research that additional
                              efficiencies were possible had the site utilized direct
                              current to power its cooling equipment. Regarding
                              our estimated cost savings, as noted in Appendix 2,
                              we utilized conservative information when
                              performing our calculations to help ensure that we
                              were not overstating potential benefits.
                              Management's comments are included in their
                              entirety in Appendix 4.




________________________________________________________________________
Page 10                                                       Comments
Appendix 1

OBJECTIVE                     To determine whether the Department of Energy
                              (Department) managed information technology
                              resources in an energy-efficient and
                              environmentally responsible manner.

SCOPE                         This audit was performed between July 2008 and
                              April 2009 at Department Headquarters in
                              Washington, DC, and Germantown, Maryland; the
                              National Energy Technology Laboratory,
                              Pittsburgh, Pennsylvania, and Morgantown, West
                              Virginia; the Oak Ridge Office, Oak Ridge National
                              Laboratory, and Y-12 National Security Complex,
                              Oak Ridge, Tennessee; and, the Sandia National
                              Laboratories and National Nuclear Security
                              Administration (NNSA) Service Center,
                              Albuquerque, New Mexico.

METHODOLOGY
 
                To accomplish the audit objective, we:

                                •	 Reviewed Federal regulations and
                                   Departmental directives and guidance
                                   pertaining to management of information
                                   technology resources;

                                •	 Reviewed prior reports issued by the Office
                                   of Inspector General;

                                •	 Reviewed numerous energy consumption
                                   related documents pertaining to the
                                   Department's management of information
                                   technology resources;

                                •	 Held discussions with officials from the
                                   Environmental Protection Agency and
                                   program officials and personnel from
                                   Department Headquarters and field sites
                                   reviewed, including representatives from the
                                   Offices of the Chief Information Officer,
                                   Health, Safety and Security, Science, Fossil
                                   Energy, and the NNSA; and,

                                •	 Performed physical observations of data
                                   centers and end-user computing environments
                                   and calculated potential cost savings based on
                                   our observations and relevant supporting
                                   documentation.

________________________________________________________________________
Page 11 	                               Objective, Scope, and Methodology
Appendix 1 (Continued)

                              We conducted this performance audit in accordance
                              with generally accepted Government auditing
                              standards. Those standards require that we plan and
                              perform the audit to obtain sufficient, appropriate
                              evidence to provide a reasonable basis for our
                              findings and conclusions based on our audit
                              objectives. We believe the evidence obtained
                              provides a reasonable basis for our findings and
                              conclusions based on our audit objectives. The
                              audit included tests of internal controls and
                              compliance with laws and regulations to the extent
                              necessary to satisfy the audit objective. Because
                              our review was limited, it would not necessarily
                              have disclosed all internal control deficiencies that
                              may have existed at the time of our audit. We also
                              assessed performance measures in accordance with
                              the Government Performance and Results Act of
                              1993 relevant to security over information systems.
                              We found that none of the seven sites reviewed had
                              developed measures related to our audit. We did
                              not rely on computer-processed data to satisfy our
                              audit objective. Management waived an exit
                              conference.




________________________________________________________________________
Page 12                                 Objective, Scope, and Methodology
Appendix 2

                                POTENTIAL SAVINGS

To determine potential savings associated with implementing power management
functions, we obtained information from each of the seven sites reviewed relevant to the
number of desktop and laptop computers in use. We also utilized information regarding
energy usage assumptions included in an Office of the Chief Information Officer (OCIO)
study, as well as information specific to each of the other sites visited and our own
physical observations. Using this information, we entered the data into an Environmental
Protection Agency (EPA) calculator designed to identify potential cost savings associated
with enabling power management functions. Based on the data input into the EPA tool,
we determined that the seven sites reviewed could save up to $7.8 million over the next
five years by enabling EPA recommended power management settings on 46,345 desktop
and laptop computers.

In addition, we calculated potential savings that could be realized by implementing thin-
client technology in an unclassified environment, including costs associated with
hardware acquisition, support services, and reduced energy consumption. However, our
analysis did not include examination of all infrastructure support costs associated with
thin-client computing, such as the potential need for more data and application servers,
since these requirements will vary by site. To calculate hardware savings, we obtained
information from each of the seven sites reviewed pertaining to the number and cost of
machines purchased over the past two years. We also obtained estimates from site
officials regarding the percentage of unclassified desktops that could be converted to
thin-clients, which ranged from 20 to 50 percent. Using actual purchase data and the
officials' estimates noted above, we calculated the average price paid for a desktop in
fiscal year 2008. To ensure our savings were conservative, we used the corresponding
percentage of the least expensive computers at each site as our baseline in calculating the
average price of a desktop computer. We then compared this result to the cost of
acquiring an equivalent number of thin-clients using a phased approach, including
additional hardware and licenses. Based on our review, we determined that the sites
reviewed could save up to $6 million in hardware costs over the next five years.

To calculate potential support services cost savings associated with the operation of thin-
clients, we utilized a third-party calculator. We input the number of potential desktops
that could be converted to thin-clients, multiplied by the lowest end of the support
services cost range to be conservative and determined that $8.8 million could be saved
over the next five years at the sites reviewed. In addition, energy savings associated with
thin-client usage was calculated by comparing the average amount of power used by a
desktop compared to a thin-client. This difference was then multiplied by the number of
hours used per year (as disclosed in an OCIO study) and the cost of a kilowatt hour at
each of the sites visited. Based on this calculation, we determined that $149,785 in
energy savings could be realized over the next five years.

The table shown on the next page details the possible savings the Department could
realize over the next five years.



________________________________________________________________________
Page 13                                                  Potential Savings
Appendix 2 (Continued)

                                Power                         Thin-Client Savings
                              Management
            Site 1             Savings             Energy        Acquisition         Support                Total
    NETL                           $42,383             $944         $150,226            $86,700          $280,253
    ORNL                          $407,053           $5,011         $255,982           $364,933         $1,032,979
    SNL                           $614,815           $5,188         $420,168           $490,450         $1,530,621
    Y-12                          $252,364           $3,057         $235,547           $294,808          $785,776
    NNSA Service Center            $41,370             $126           $7,617            $11,900            $61,013
    Headquarters                   $95,432          $15,409         $128,240           $495,125          $734,206
    ORO                           $110,360             $222           $8,425             $9,775          $128,782
 Annual Savings                 $1,563,777          $29,957 $1,206,205 $1,753,691                     $4,553,630
 Five-Year Savings              $7,818,885        $149,785 $6,031,025 $8,768,455 $22,768,150
* Reflects only potential savings at a limited number of sites. 	We were unable to calculate Department-wide
  savings.




1
  The Department is currently transitioning the NNSA Service Center to the Department of Energy's
Common Operating Environment (DOECOE), which will become the responsibility of the Office of the
Chief Information Officer. In addition, potential savings calculated for Headquarters are based only on a
review of DOECOE machines.
________________________________________________________________________
Page 14 	                                                Potential Savings
Appendix 3

            PRIOR OFFICE OF INSPECTOR GENERAL REPORTS
 



•	   Management of the Department's Data Centers at Contractor Sites (DOE/IG-0803,
     October 2008). The Department of Energy (Department) had not always taken
     advantage of opportunities to improve the efficiency of its data centers. In
     particular, as many as 140 data centers were found at the six sites reviewed that
     duplicated common services such as e-mail, data storage, and libraries.
     Furthermore, four of the six sites made only limited use of more efficient hardware
     technologies that conserve energy and reduce operational costs. The Office of
     Inspector General (OIG) estimated that $2.3 million per year for these six sites
     could be saved through the use of more efficient hardware technologies allowing
     for the consolidation of servers and be more energy-efficient.

•	   Facility Contractor Acquisition and Management of Information Technology
     Hardware (DOE/IG-0768, June 2007). Over the past three years, the Department
     has spent over $400 million on information technology hardware; however,
     problems have been noted in its ability to effectively manage its acquisition and
     control of such hardware. The audit noted that five of seven sites reviewed had not
     developed or fully implemented hardware specifications and brand standards for
     computers and related peripherals, causing at least $4.7 million in unnecessary
     expenditures over a three-year period. The report concluded that the Department
     could potentially realize savings of about $16.6 million over five years at the sites
     reviewed by better controlling hardware costs and implementing standards for
     certain equipment.

•	   The Department's Efforts to Implement Common Information Technology Services
     at Headquarters (DOE/IG-0763, March 2007). The OIG found that although some
     progress had been made at Headquarters, five major organizations, accounting for
     40 percent of the total potential user population, were not migrated to the common
     operating environment within the first year as planned, thus preventing the
     realization of the full $15 million in expected first year cost savings. The OIG
     recommended that completion of Headquarters migration to the Department's
     Common Operating Environment be accomplished prior to implementation at field
     sites. Additionally, formalization of migration plans, requirements analyses, and
     cost-benefit analyses should be accomplished.




________________________________________________________________________
Page 15 	                                              Prior Audit Reports
Appendix 4




                                            Department of Energy
                                                Washington. OC 20585

                                                     May 7,2009
             MEMORANDUM FOR RICKEY R. HASS, DEPUTY INSPECTOR GENERAL
                            OFFICE OF AUDIT SERVICES


                                                              e
                            OFFICE OF THE INSPECTOR GENERAL

             FROM:                   THOMAS N. PYKE, JR.


             SUBJECT:                Department of Energy Report on "The Department's Efforts to
                                     Manage information Technology Resources in an Energy-Efficient
                                     and Environmentally Responsible Manner''


             The Ofice of the Chief Information Officer (OCIO) appreciates the opportunity to provide
             comments to the Ofice of Inspector General's April 3,2009 draft report on managing
             information technology resources. The OCIO and the Department fully support the efforts to
             reduce the nation's cncrgy consumption and acknowledge the benefits of improving the
             energy efficiency of Federal operations across the DOE Complex.

             To answer the recommendations in the report, the Department's Chief Financial Officer
             requested that the OClO consolidate its comments with those from the various Departmental
             Program offices, and, as such, comments have been received from the Office of Science, the
             Office of Fossil Energy, and the National Energy Tcchnology Laboratory. The National
             Nuclear Security Administration indicated that they would provide comments under a
             separate cover.

             Comments to address thc specific recommendations are outlined below while technical
             comments to the body of the report are included as an attachment.



             Develup and implement policies andprocedriresfor ensuring that power management settings
             nre enabled on all computing resources, as appropriate.

             The Department concurs with the intent of the recommendation - to help ensure power
             settings are enabled across the DOE Complex, as appropriate - but disagrees that additional
             policy is needed. Departn~entalpolicy already exists in 'the form of DOE 0 450.1A,
             Environmental Protection Program. which specifies that federal and contractor sites are
             required to "enable Energy Stam features (e.g. power management capabilities) on all
             computers, monitors, printers, copiers, and other electronic equipment, or to the maximum
             degree based on mission needs."

             In addition, the current DOE COE desktop computer that is delivered and maintained by the
             OClO for the majority of Headquarters organizations and some field sites already possesses
             numerous energy saving controls. In early 2008. the OClO worked closely with the provider




  Page 16                                                                           Manaqement Comments
Appendix 4




             of the DOE COE patch management software to include a power management capability.
             Through this joint effort, extensive power management capabilities were added and
             implemented to the DOE COE Windows XP standard image. These power management
             features include the ability to force the desktop computer to be powered off at night. Patch
             management is now staggered during periods of non-activity during the nonnal duty hours
             which removes the requirement to leave the computers on at night to receive patches.

             Program and field locations included in the audit have indicated that they would take
             additional sttps to enable power management settings where possible. In particular, the
             Office of Science stated that they would "provide additional direction to their federal and
             contractor personnel to implement power management settings as directed in DOE 0
             450.1A." The National Energy Technology Laboratory confirmed that they were "moving
             forward to regulate power management settings for all desktop and laptop computers through
             the execution of scripts to automatically change power management settings on NETL
             deltops and laptops in accordance with the EPA recommendations to turn off monitors after
             20 minutes of inactivity." They added that they will be initiating a pilot to determine the
             impect of placing systems into standby after 60 minutes of inactivity although their past
             experience of placing systems into standby or hibernation mode has not been positive as such
             actions have caused systems to lose connection to servers or to network disk drives.

             Recommendation 2
             Analyre rhe costs and beneftts of urilizing thin-clienr compuring In an unclassified
             environment and implemenr rhe resulfs ro rhe exlenr prmical.

             The OCIO concurs with the recommendation. During FY08,the OCJO began a multi-vendor
             prototype testing activity and evaluated six different thin client product offerings. In addition,
             live testing of the technology continued at the OCIO March 2009 Jnfonnation Management
             Conference in New Orleans and agreement was reached to begin a pilot project for further
             evaluation at a DOE field site.

             However, our analysis to date indicates that, while thin client product offerings should suffice
             for many DOE federal employees and their direct supporc contractors, this technology is not
             an acceptable substitute for all computer users. One example of an area that may be
             challenging for thin client usage is in the delivery of video streams and applications that rely
             on high end graphics. Therefore, we anticipate DOE will require a mixed environment of
             thin-client architectures and PC technology. OCIO commits to continue to evaluate user
             needs and their applications in assessing all costslbenefits and potential impacts of
             implementing thin-clients throughout DOE.

             The Office of Science (SC) stated that they believe suficicnt codbenefit data is already
             available to them and their sites for dcciion-making purposes. SC plans to allow their
             individual sites to evaluate and implement the technologies that represent the best use of their
             management attention and resources.

             NETL agrcccl to review the results of the OCIO's current and hturc analyses and identi@ a
             subsequent path forward.




 Paae 17                                                                              Management Comments
Appendix 4




          Recommendation 3

          IdentifL and implement mechanisms to reduce data center energy consumpiion, including. bur
          not limited to, mnakting energy usage assessments and implementing t k use of existing
          Dapmtmcnt automded tools.

          The comments made by the Department as part of the report on Management o f t k
          Department 's Data Centers at Contractor Sites (DOEIIG-0803, October 2008). as well as the
          action plans asmciated with the recommendations made in that rrpon, already address this
          recommendation.

          The Office of Science noted that the IG did not provide data showing that no work was
          ongoing in this area, just that sites were not making use of the particular tool the OIG
          encountered. The National Energy Technology Laboratory disagreed with the conclusion that
          their data center was not energy efficient stating, "The data center HVAC system utilizes
          chilled water data center units. They arc very reliable and as energy effcient as anything on
          the market. Chilled water units were chosen for various reasons: I) since the building's
          HVAC system operates on an independent chilled water system, the building's system could
          be wd as the redundant backup system should one of the data center's chil,ledwater
          generators fail; 2) the data center's heat load can allow the building's chilled water generators
          to operate more efficiently during transitional ambient ternpetatms; and, 3) the chilled water
          generators provide free cooling during cold ambient temperatures greatly enhancing system
          efficiency."

          As cited in the prior report, the OCIO has already consolidated the common services and
          implemented application hosting for most of the Headquarters program elements and, in
          response to the prior nport, agreed to share best practices associated with that consolidation
                                               -
          as requested. In addition, the OCIO in partnenhip with the Federal Energy Management
          Program in the Of'fice of Energy Emciency and Renewable Energy, the Office of
                                                                                   -
          Management, and the Lawrence Berkeley National Laboratory (LBNL) will be installing
          power, cooling, and data center environmental metering systems for the Germantown and
          Forrestal data centers. Due to the age and configuration of these data centers, then is no
          effective method to isolate the data center power and cooling consumption from the rest of the
          building. The asscsxnent effort proposes to install power and cooling meters to baseline
          energy use and support the development of an energy improvement plan. The metering
          system is expected to be installed by the end of May.




                                                          3
Page 18                                                                           Manaaement Comments
Appendix 4


                                             Department of Energy 
 

                                      National Nuclear Security Admlnlstratlon 
 

                                               Washington, DC 20585 
 


                                                   May 1, 2009

             MEMORANDUM FOR               Rickey R. Hass
                                          Deputy Inspector General
                                           for Audit Services                fl

             FROM:                        Michael C. Kane
                                          Associate Administrator
                                           for Management and Administration

             SUBJECT: 	 	                 Comments to the IG's Draft Report on IT Energy
                                          Efficient Resources, Project No. A08TG064; IDRMS
                                          NO. 2008-02008

             The National Nuclear Security Administration (NNSA) appreciates the opportunity to
             review the Inspector General's (IG) draft report, The Department's Efforts to Manage
             Information Technology Resources in an Energy-Eflcient and Environmentally
             Responsible Manner. We understand that this audit was conducted to determine whether
             the Department is managing the life-cycle of information technology equipment in an
             energy-efficient and environmentally responsible manner.

             NNSA generally agrees with the report and recommendations. However, it is important
             to note that the NNSA Federal computing resources (e.g., desktops, peripherals) are
             managed by DOE through Energy Information Technology Services (EITS) as part of the
             DOE Common Operating Environment (DOE COE). Consequently, EITS the
             Department's Chief Information Officer (DOE CIO) manages all power settings for
             NNSA Federal staff desktops and peripherals. Any changes to the DOE COE
             configuration and image that maximizes power efficiency are the responsibility of EITS.

             Recommendation 1: Develop and implement policies and procedures for ensuring
             that power management settings are enabled on all computing resources, as
             appropriate.

             Even though the NNSA concurs with the recommendation, we do not directly control
             Federal computing resources except for a very small configuration that NNSA maintains
             to support mission applications. The NNSA' Chief Information Officer (NNSA CIO) is
             prepared to work closely with the DOE CIO and EITS in defining the appropriate power
             management settings and implementing these though the customer service and service
             level agreements established between the two parties.




 Paae 19 	 	                                                                         Management Corr~ments
Appendix 4
                                                                                                       2
 


          Management and Operating (M&O) computing resources: The M&O contractors directly
          control their computing resources and have the responsibility for managing the power
          settings on their computing resources. As part of its IT oversight responsibilities, the
          NNSA CIO will work closely with the Contracting Officers and M&O contractor staffs to
          identify and implement energy efficient power settings. The following table outlines the
          actions that the NNSA CIO plans to undertake:

                                         Action                                      Completed By
          • Develop a policy to minimize computing resources power                4 Q – FY 2010
            consumption
                    o Establish policy formulation team
                    o Identify appropriate power settings
                    o Develop draft policy
                    o Assess impact
                    o Have policy approved
          • Modify contracts                                                      2 Q – FY 2011
                    o Prepare Contract Requirements Document (CRD)
                    o Modify contracts as necessary
          • Monitor and Report                                                    180 days after CRD
                                                                                  is implemented and
                                                                                  on an annual basis to
                                                                                  ensure continued
                                                                                  compliance


          Recommendation 2: Analyze the costs and benefits of utilizing thin-client computing
          in an unclassified environment and implement the results to the extent practical.

          The NNSA in theory agrees with the recommendation. Below are identified impacts, as
          well as a series of actions to address the recommendations. These actions are dependent
          on the funding that is required to plan, design, acquire, and implement a thin-client
          architecture for the NNSA unclassified systems.

          It is important to note that putting in place a thin-client desktop is only one of the actions
          and cost items for implementing a thin-client architecture. A thin-client architecture will
          impact:

          •	 NNSA networks – acquiring the bandwidth and circuits/switches necessary to support
             greatly increased transmission loads while maintaining performance and reliability
             requirements.
          •	 NNSA infrastructure – acquiring the thin-client devices that support unclassified
             computing applications and peripherals. Also acquiring and configuring the server
             and storage networks necessary to support thin-client computing.
          •	 NNSA business applications and databases – defining, planning, modifying, and
             testing changes to NNSA business applications and data bases to work on a thin-
             client architecture.




Page 20                                                                      Management Comments
Appendix 4
                                                                                                        3
 



           •	 NNSA cyber security policies – defining, planning, implementing, and testing cyber
              security standards, configurations, and settings to support a thin-client architecture.

           The following outlines the actions that the NNSA CIO proposes to undertake related to
           analyzing the costs and benefits of and implementing a thin-client architecture to the
           extent practical.

                                         Action                                     Completed By
           • Conduct a study on the costs, benefits, and impacts of moving       2nd Q – FY 2012
             to a thin-client architecture for NNSA’s unclassified systems.
                       o Define objectives, scope, key actions and
                           deliverables
                       o Select contractor
                       o Undertake study
                       o Assess impact, costs and benefits
           • Phased implementation of a thin-client architecture for                     TBD
             unclassified systems that support Federal sites and staff           (Dependent upon
                                                                                 funding availability
                                                                                 and results of the
                                                                                 study)
           • Phased implementation of a thin-client architecture for                     TBD
             unclassified systems that support M&O contractor sites and          (Dependent upon
             staff                                                               funding availability
                                                                                 and results of the
                                                                                 study)

           Recommendation 3: Identify and implement mechanisms to reduce data center
           energy consumption including but not limited to conducting energy usage
           assessments and implementing the use of existing Department automated tools.

           Even though the NNSA concurs with the recommendation, we do not directly control
           Federal computing resources except for a very small configuration that NNSA maintains
           to support mission applications. The NNSA CIO will undertake a series of actions to
           address the recommendations.

           Federal data centers: In early FY 2009, the NNSA CIO identified the serious energy
           consumption, maintainability, scalability, and performance issues with its current
           Headquarters configuration and initiated actions to replace it. NNSA is promoting the
           acquisition of a “blade” architecture using a virtual operating system (VMware), an
           enhanced storage network using advance NAS technology, and a new back-up
           technology. This configuration would significantly reduce NNSA’s “foot print” and
           power consumption.

                                         Action                                      Completed By
           • Replace NNSA’s mission support infrastructure                       1st Q – FY 2010




 Page 21                                                                  Management Comments
Appendix 4



             M&O computing resources: The M&O contractors directly control their computing
             resources and have the responsibility for monitoring and managing the power utilization
             on their computing resources. Several M&O's (Pantex, Livermore, Los Alamos) have
             initiated, and in some cases completed projects to virtualize their unclassified
             environments, which have resulted in significant reductions in physical servers and the
             related power consumptions. The,NNSA CIO has strongly supported these efforts. As
             part of its IT oversight responsibilities, the NNSA CIO will work closely with the
             Contracting Officers and M&O contractor staffs to further reduce energy consumption,
             implement energy usage assessments, and implement the appropriate tools. The
             following table outlines the actions that the NNSA CIO plans to undertake:

                                           Action                                  Completed By
               Develop a program to conduct periodic energy usage               4 Q ­ FY 2009
               assessments at the sites
               Monitor and report energy usage                                  On an annual basis
               Analyze existing DOE automated tools for identifying data        1 Q ­ FY 2010
               center power saving opportunities and determine if complex-
               wide use is possible
               Determine applicability of tools for use by sites                l Q ­ FY 2010
               Develop and implement a program to inform IT staff at M&O's      2 Q ­ FY 2010
               on how to identify power saving opportunities
               Monitor developments in mechanisms and tools for reducing        On-going
               data center energy consumption and inform IT staff at the
               M&OYsabout appropriate mechanisms and tools

             Should you have any questions about this response, please contact Cathy Tullis, Acting
             Director, Policy and Internal Controls Management, at 202-586-3857.

             cc: Linda Wilbanks, Chief Information Officer
                 David Boyd, Senior Procurement Executive
                 Karen Boardman, Director, Service Center




 Page 22                                                                Management Comments
                                                          IG Report No. OAS-RA-09-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1.	 What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report?

2.	 What additional information related to findings and recommendations could have
    been included in the report to assist management in implementing corrective actions?

3.	 What format, stylistic, or organizational changes might have made this report's
    overall message more clear to the reader?

4.	 What additional actions could the Office of Inspector General have taken on the
    issues discussed in this report which would have been helpful?

5.	 Please include your name and telephone number so that we may contact you should
    we have any questions about your comments.


Name	                                         Date

Telephone 	                                   Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
